 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




NEIGHBORHOOD HOUSE ASSOCIATION
 CLAIMED ALLOWABLE HEAD START
   COSTS BUT DID NOT MAINTAIN
  ADEQUATE INTERNAL CONTROLS
RELATED TO PERSONNEL, FACILITIES,
       AND SUBCONTRACTS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Lori A. Ahlstrand
                                                Regional Inspector General

                                                       February 2013
                                                       A-09-11-01015
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 The grantee Neighborhood House Association claimed allowable Head Start costs for
 the year ended June 30, 2010, and maintained adequate internal controls related to
 procurement to administer federally funded projects. However, it did not maintain
 adequate controls related to personnel, facilities, and subcontracts.

WHY WE DID THIS REVIEW

The Office of Head Start (OHS) requested that we perform this review of the grantee
Neighborhood House Association (NHA), which has received $1.1 billion in Head Start funding
since 1989. For the period July 1, 2009, through June 30, 2010, OHS awarded NHA
$71,691,713 in Head Start funds (the award). We reviewed $26,762,944, focusing primarily on
personnel and facilities costs.

Our objectives were to determine whether NHA (1) claimed Head Start costs that were allowable
in accordance with the terms of the award and applicable Federal requirements and
(2) maintained adequate internal controls related to personnel, procurement, facilities, and
subcontracts to administer federally funded projects.

BACKGROUND

Head Start is a Federal discretionary grant program that promotes school readiness and enhances
the social and cognitive development of children from families with low incomes by providing
educational, health, nutritional, and social services. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF), OHS, administers Head
Start.

NHA, a nonprofit agency, provides health and social services to Head Start–eligible children and
their families in and around San Diego, California. During the award period, NHA contracted
with subrecipients, known as delegate agencies and partners, to provide some Head Start
services. By accepting the award, NHA agreed to comply with Federal regulations governing the
administration of the award, including compliance with various cost principles. As a nonprofit
agency, NHA is subject to 45 CFR part 74.

WHAT WE FOUND

Of the $26,762,944 of costs we reviewed, the entire amount was allowable in accordance with
the terms of the award and applicable Federal requirements. Additionally, NHA maintained
adequate internal controls related to procurement to administer federally funded projects.
However, NHA did not maintain adequate internal controls related to personnel, facilities, and
subcontracts:

    •   Of 22 selected employees, 17 had been employed before NHA obtained required criminal
        record checks. Although NHA obtained criminal record checks for the 17 employees
        after they were hired, it did not obtain checks for 12 of these employees until our audit.


Neighborhood House Association’s Head Start Costs and Internal Controls (A-09-11-01015)           i
        In addition, none of the 22 employees had an adequate signed statement regarding
        criminal history.

    •   Of six selected facilities, one of three facilities required to have a Notice of Federal
        Interest (notice) did not have a notice recorded. Federal regulations require grant
        recipients to record appropriate notices to indicate that real property has been acquired
        with Federal funds. In addition, of 18 notices recorded, 17 did not meet all of the
        applicable Federal regulations for the type of facility.

    •   Of six selected subrecipients, one did not provide an audit report to NHA, and NHA did
        not know whether an audit had been performed in accordance with Federal regulations.

These conditions occurred because NHA (1) did not have written policies and procedures to
ensure that it complied with Federal requirements for criminal record checks, did not consider
certain employees to be subject to these requirements, and believed that its signed statements
regarding criminal history were adequate; (2) did not know that a notice was required for one of
its facilities and used a template provided by ACF that did not meet all of the applicable Federal
regulations; and (3) did not adequately monitor all of its subrecipients to ensure that audits were
performed in accordance with Federal regulations.

WHAT WE RECOMMEND

We recommend that OHS require NHA to:

    •   develop written policies and procedures to comply with Federal requirements for criminal
        record checks, obtain criminal record checks before employing individuals, and obtain
        adequate signed statements regarding criminal history;

    •   record notices for all real property for which the Federal Government has an interest; and

    •   monitor all of its subrecipients to ensure that audits are performed in accordance with
        Federal regulations.

NEIGHBORHOOD HOUSE ASSOCIATION COMMENTS

In its written comments on our draft report, NHA provided additional information in response to
our findings and described actions that it had taken or planned to take to address our findings.

OFFICE OF HEAD START COMMENTS

In its written comments on our draft report, OHS agreed with our findings and stated that it will
work with NHA to ensure that a corrective action plan is implemented.




Neighborhood House Association’s Head Start Costs and Internal Controls (A-09-11-01015)               ii
                                                    TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION................................................................................................................1

           Why We Did This Review .......................................................................................1

           Objectives..................................................................................................................1

           Background ..............................................................................................................1
                 Head Start Program: Purpose and Administration ........................................1
                 Neighborhood House Association: A Head Start Grantee ............................1
                 Federal Requirements for Grantees ...............................................................2

           How We Conducted This Review ...........................................................................2

FINDINGS ............................................................................................................................2

           Criminal Record Checks and Criminal History Statements
            Did Not Comply With Federal Requirements ....................................................3
                 Criminal Record Checks Were Not Obtained for All Employees
                   Before Hire Dates .......................................................................................3
                 Criminal History Statements Were Inadequate..............................................4
                 Policies and Procedures Did Not Exist and Federal Requirements
                   Were Misinterpreted ...................................................................................4

           Notices for Property for Which the Federal Government Has an
            Interest Were Not Recorded or Improperly Recorded .....................................4
                  Notice of Federal Interest Was Not Recorded for One Facility.....................4
                  Notices of Federal Interest Were Inadequate .................................................5
                  Federal Requirements Were Misinterpreted and ACF Template
                    Was Inadequate ...........................................................................................5

           Subrecipient Did Not Provide Audit Report to
            Neighborhood House Association ........................................................................5

RECOMMENDATIONS.....................................................................................................6

NEIGHBORHOOD HOUSE ASSOCIATION COMMENTS ........................................6

OFFICE OF HEAD START COMMENTS ......................................................................6




Neighborhood House Association’s Head Start Costs and Internal Controls (A-09-11-01015)                                                    iii
APPENDIXES

        A: Audit Scope and Methodology..........................................................................7

        B: Federal Requirements for Head Start Grantees .............................................9

        C: Costs Claimed and Results of Audit for the Period July 1, 2009,
            Through June 30, 2010 ....................................................................................11

        D: Neighborhood House Association Comments .................................................12

        E: Office of Head Start Comments........................................................................16




Neighborhood House Association’s Head Start Costs and Internal Controls (A-09-11-01015)                                    iv
                                             INTRODUCTION

WHY WE DID THIS REVIEW

The Office of Head Start (OHS) requested that we perform this review of the grantee
Neighborhood House Association (NHA), which has received $1.1 billion in Head Start funding
since 1989. For the period July 1, 2009, through June 30, 2010, OHS awarded NHA
$71,691,713 in Head Start funds (the award). We reviewed $26,762,944, focusing primarily on
personnel and facilities costs.

OBJECTIVES

Our objectives were to determine whether NHA (1) claimed Head Start costs that were allowable
in accordance with the terms of the award and applicable Federal requirements and
(2) maintained adequate internal controls related to personnel, procurement, facilities, and
subcontracts to administer federally funded projects.

BACKGROUND

Head Start Program: Purpose and Administration

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major objectives of the program are to promote school
readiness and enhance the social and cognitive development of children from families with low
incomes by providing educational, health, nutritional, and social services. 1 Head Start provides
grants to local public and private nonprofit and for-profit agencies to deliver comprehensive
child development services, with a special focus on helping preschoolers develop the early
reading and math skills needed to be successful in school. Within the U.S. Department of Health
and Human Services (HHS), the Administration for Children and Families (ACF), OHS,
administers Head Start.

Neighborhood House Association: A Head Start Grantee

NHA, a nonprofit agency, provides health and social services to Head Start–eligible children and
their families in and around San Diego, California. NHA is funded primarily through Federal,
State, and local government grants. For the period July 1, 2009, through June 30, 2010, OHS
awarded NHA $71,691,713 in Head Start funds to provide services to 8,085 children. NHA
expended $71,631,010 of the award. The remaining $60,703 was not expended and was returned
to OHS.

During the award period, NHA contracted with subrecipients, known as delegate agencies and
partners, to provide some Head Start services. As subrecipients of Federal grants, delegate
agencies and partners were responsible for meeting the program, administrative, financial, and


1
 In 1994, the Head Start program was expanded to establish Early Head Start, which serves children from birth to
3 years of age. We refer to both programs as “Head Start.”

Neighborhood House Association’s Head Start Costs and Internal Controls (A-09-11-01015)                            1
reporting requirements of the grant, including those necessary to ensure compliance with all
applicable Federal regulations.

Federal Requirements for Grantees

By accepting the award, NHA agreed to comply with Federal regulations governing the
administration of the award, including compliance with various cost principles. As a nonprofit
agency, NHA is subject to 45 CFR part 74. The regulations at 45 CFR § 74.27(a) state that the
allowability of costs will be determined in accordance with 2 CFR part 230 (Office of
Management and Budget Circular A-122). In addition, regulations at 45 CFR § 74.21 require
nonprofit agencies to maintain financial management systems that meet various requirements.

The Head Start Program Performance Standards, found at 45 CFR §§ 1301 through 1311,
establish regulations applicable to program operations, administration, and grants management
for all grants awarded under the Improving Head Start Act for School Readiness Act of 2007
(Head Start Act).

HOW WE CONDUCTED THIS REVIEW

OHS requested that we review NHA. In response to OHS’s request, we reviewed $26,762,944
of the $71,631,010 of Head Start costs that NHA claimed during the award period (July 1, 2009,
through June 30, 2010), focusing primarily on personnel and facilities costs. We did not review
fringe benefit, travel, or contractual costs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our audit scope and methodology and Appendix B for the
Federal requirements related to our findings.

                                               FINDINGS

Of the $26,762,944 of costs we reviewed, the entire amount was allowable in accordance with
the terms of the award and applicable Federal requirements. (See Appendix C for the costs
claimed and the results of our audit.) Additionally, NHA maintained adequate internal controls
related to procurement to administer federally funded projects. However, NHA did not maintain
adequate internal controls related to personnel, facilities, and subcontracts:

    •   Of 22 selected employees, 17 had been employed before NHA obtained required criminal
        record checks. Although NHA obtained criminal record checks for the 17 employees
        after they were hired, it did not obtain checks for 12 of these employees until our audit.
        In addition, none of the 22 employees had an adequate signed statement regarding
        criminal history.



Neighborhood House Association’s Head Start Costs and Internal Controls (A-09-11-01015)           2
      •    Of six selected facilities, one of three facilities required to have a Notice of Federal
           Interest (notice) did not have a notice recorded. Federal regulations require grant
           recipients to record appropriate notices to indicate that real property has been acquired
           with Federal funds. In addition, of 18 notices recorded, 17 did not meet all of the
           applicable Federal regulations for the type of facility.

      •    Of six selected subrecipients, one did not provide an audit report to NHA, and NHA did
           not know whether an audit had been performed in accordance with Federal regulations.

These conditions occurred because NHA (1) did not have written policies and procedures to
ensure that it complied with Federal requirements for criminal record checks, did not consider
certain employees to be subject to these requirements, and believed that its signed statements
regarding criminal history were adequate; (2) did not know that a notice was required for one of
its facilities and used a template provided by ACF that did not meet all of the applicable Federal
regulations; and (3) did not adequately monitor all of its subrecipients to ensure that audits were
performed in accordance with Federal regulations.

CRIMINAL RECORD CHECKS AND CRIMINAL HISTORY STATEMENTS
DID NOT COMPLY WITH FEDERAL REQUIREMENTS

NHA did not obtain criminal record checks for all of its employees before their hire dates and
did not have adequate signed statements regarding criminal history for all of its employees.

Criminal Record Checks Were Not Obtained for All Employees
Before Hire Dates

The Head Start Act states that, before a Head Start agency employs an individual, it must obtain
a Federal, State, or tribal criminal record check covering all jurisdictions where the grantee
provides Head Start services to children (section 648A (g)). Moreover, regulations and ACF
guidance required every Head Start program to ensure that background checks were conducted
on all employees hired before the enactment of the statutory requirement. 2

Of 22 selected employees, 17 were employed before criminal record checks had been obtained. 3
Although NHA eventually obtained criminal record checks for the 17 employees, checks for 12
of these employees were not obtained until our audit. 4




2
  Employees hired before the statutory requirement went into effect (December 12, 2007) were subject to criminal
record checks required by 45 CFR § 1301.31(b)(1)(iii) and ACF’s Program Instruction ACF-PI-HS-08-02, issued
April 14, 2008 (now superseded).
3
 The 17 employees consisted of 5 employees paid through direct costs, 11 employees paid through an indirect cost
pool, and 1 employee, the chief executive officer (CEO), who did not receive pay from Head Start.
4
    The 12 employees consisted of 11 employees paid through an indirect cost pool and the CEO.


Neighborhood House Association’s Head Start Costs and Internal Controls (A-09-11-01015)                            3
Criminal History Statements Were Inadequate

Federal regulations state that grantee agencies must require that all current and prospective
employees sign a declaration before employment that lists all pending and prior criminal arrests
and charges related to child sexual abuse and their disposition (45 CFR § 1301.31(b)(2)(i)).

Of the 22 selected employees, none had signed statements regarding criminal history that
complied with Federal regulations. The statements did not list all pending and prior criminal
arrests and charges related to child sexual abuse and their disposition.

Policies and Procedures Did Not Exist and Federal Requirements
Were Misinterpreted

NHA did not have written policies and procedures to ensure that it complied with Federal
requirements for criminal record checks and did not consider employees paid through an indirect
cost pool to be subject to criminal record checks (for example, employees who did not work
onsite at a licensed child-care facility). Additionally, NHA believed that its signed statements
regarding employees’ criminal history complied with Federal regulations. Because NHA did not
maintain adequate internal controls related to personnel, there was an increased risk to the safety
of children in its care and of misuse of Federal funds.

NOTICES FOR PROPERTY FOR WHICH THE FEDERAL GOVERNMENT HAS AN
INTEREST WERE NOT RECORDED OR IMPROPERLY RECORDED

NHA did not record notices for all of its facilities acquired with Federal funds, and most of the
notices that it recorded were not adequate.

Notice of Federal Interest Was Not Recorded for One Facility

Federal regulations state that the Federal Government has an interest in all real property acquired
with grant funds for use as a Head Start facility (45 CFR § 1309.21(a)). 5 A grant recipient must
record an appropriate notice of record to indicate that real property has been acquired with
Federal funds (45 CFR § 74.37), and, except for certain modular units, the notice must be
recorded in the appropriate official records for the jurisdiction where a facility is located
immediately upon its purchase (45 CFR § 1309.21(d)(2)).

NHA did not record notices for all of its facilities acquired with Federal funds. Of six selected
facilities, one of three facilities required to have a notice did not have one recorded. Federal
interest was created in the facility when Federal funds were used to pay mortgage interest on a
loan used to acquire the facility.



5
  “Acquire” means to purchase or construct in whole or in part with Head Start grant funds through payments made
in satisfaction of a mortgage agreement (both principal and interest), as a downpayment, and for professional fees,
closing costs, and any other costs associated with the purchase or construction of the property that are usual and
customary for the locality (45 CFR § 1309.3).


Neighborhood House Association’s Head Start Costs and Internal Controls (A-09-11-01015)                               4
Notices of Federal Interest Were Inadequate

For property sited on land not owned by the grantee, notices must contain information that
(1) the grant incorporated conditions that included restrictions on the use of the property and
(2) the property was not to be used for any purpose inconsistent with that authorized by the Head
Start Act and applicable regulations, among other requirements (45 CFR § 1309.21(d)(3)). For
modular units purchased with grant funds, notices must contain specific language outlined at
45 CFR § 1309.31(b), which provides for the continued Federal interest in the property.

Of 18 notices that NHA recorded, 17 did not meet all of the applicable requirements of
45 CFR § 1309.21(d)(3) and 45 CFR § 1309.31(b) for the respective type of facility. For
example, the notices for property sited on land not owned by the grantee did not contain
information that (1) the grant incorporated conditions that included restrictions on the use of the
property or (2) the property was not to be used for any purpose inconsistent with that authorized
by the Head Start Act and applicable regulations. In addition, the notices for modular units did
not have the specific language required for modular units as outlined in Federal regulations.

Federal Requirements Were Misinterpreted and ACF Template
Was Inadequate

NHA was not aware that a Federal interest was created when Head Start paid mortgage interest
on a loan used to acquire a NHA facility; as a result, it did not record a notice for the facility. In
addition, NHA officials said that they had completed notices in accordance with the format
prescribed by ACF. The ACF template did not meet the requirements of 45 CFR
§ 1309.21(d)(3) because the template was for modular units and did not document information
required for property sited on land not owned by the grantee. In addition, the template did not
meet the requirements of 45 CFR § 1309.31(b) for modular units because it did not contain the
specific language required for modular units as outlined in Federal regulations.

Without adequate internal controls for facilities, the Federal interest in a property may not be
protected, which may result in unauthorized transfer of the property or use of the facility for
activities other than those for which the facility was funded.

SUBRECIPIENT DID NOT PROVIDE AUDIT REPORT TO
NEIGHBORHOOD HOUSE ASSOCIATION

Federal regulations require that an independent auditor conduct an audit of the Head Start
program covering the prior budget period of each Head Start agency and its delegate agencies.
Head Start agencies must either include delegate agency audits as part of their own audits or
provide for separate independent audits of their delegate agencies (45 CFR § 1301.12(a)).
Grantees are responsible for managing and monitoring each subaward supported by the award
(45 CFR § 74.51(a)).

Of six selected NHA subrecipients, one did not provide to NHA an audit report for our audit
period, and NHA did not know whether an audit had been performed in accordance with Federal
regulations. Although NHA’s contracts with subrecipients required them to have audits of their



Neighborhood House Association’s Head Start Costs and Internal Controls (A-09-11-01015)                  5
Head Start programs, NHA’s monitoring of subrecipients was not adequate to ensure that all of
its subrecipients had audits performed in accordance with Federal regulations. Without adequate
internal controls over subrecipients, there is an increased risk of subrecipient fraud, and Federal
grants are at risk for misappropriation.

                                       RECOMMENDATIONS

We recommend that OHS require NHA to:

    •   develop written policies and procedures to comply with Federal requirements for criminal
        record checks, obtain criminal record checks before employing individuals, and obtain
        adequate signed statements regarding criminal history;

    •   record notices for all real property for which the Federal Government has an interest; and

    •   monitor all of its subrecipients to ensure that audits are performed in accordance with
        Federal regulations.

                  NEIGHBORHOOD HOUSE ASSOCIATION COMMENTS

In its written comments on our draft report, NHA provided additional information in response to
our findings and described actions that it had taken or planned to take to address our findings.
NHA’s comments are included in their entirety as Appendix D.

                            OFFICE OF HEAD START COMMENTS

In its written comments on our draft report, OHS agreed with our findings and stated that it will
work with NHA to ensure that a corrective action plan is implemented. OHS’s comments are
included in their entirety as Appendix E.




Neighborhood House Association’s Head Start Costs and Internal Controls (A-09-11-01015)             6
                       APPENDIX A: AUDIT SCOPE AND METHODOLOGY

Scope

We reviewed $26,762,944 of the $71,631,010 of Head Start costs that NHA claimed during the
award period (July 1, 2009, through June 30, 2010). We did not review fringe benefit, travel, or
contractual costs.

We did not review the overall internal control structure of NHA. We reviewed only the internal
controls that directly related to our audit objectives.

We conducted our audit from November 2011 to May 2012 and performed fieldwork at NHA’s
corporate office in San Diego, California.

Methodology

To accomplish our objectives, we:

      •    reviewed applicable Federal laws, regulations, and guidance;

      •    reviewed NHA’s Head Start grant applications, Federal grant award documentation, and
           Federal Financial Status Reports (SF-269); 6

      •    interviewed ACF officials to gain an understanding of their fiscal and program
           monitoring procedures for the Head Start program;

      •    interviewed NHA officials to gain an understanding of the costs claimed under the award
           and NHA’s policies and procedures related to budgeting, claiming, and reporting costs;

      •    reviewed NHA’s board of directors’ meeting minutes;

      •    reviewed NHA’s policies and procedures related to personnel, procurement, facilities,
           and subcontracts;

      •    reviewed an OHS onsite evaluation report of NHA;

      •    reviewed NHA’s audited financial statements for the period July 1, 2009, through
           June 30, 2010;

      •    reviewed NHA’s indirect cost agreement from the HHS Division of Cost Allocation;

      •    reconciled the costs that NHA claimed under the award with its general ledger;



6
    Effective February 1, 2011, for expenditure reporting, HHS replaced the SF-269 with the SF-425.


Neighborhood House Association’s Head Start Costs and Internal Controls (A-09-11-01015)               7
    •   analyzed NHA’s general ledger and examined, on a test basis, evidence supporting
        selected transactions for claimed costs to determine their allowability (focusing primarily
        on personnel and facilities costs);

    •   reviewed NHA’s cost allocation methodologies for shared costs;

    •   reviewed NHA’s employee personnel files to determine whether NHA complied with
        Federal requirements for criminal record checks and criminal history statements;

    •   analyzed records for facilities used by Head Start to determine whether there was a
        Federal interest in the properties;

    •   reviewed NHA’s contracts with its subrecipients and reviewed five subrecipients’ audit
        reports; and

    •   discussed our findings with ACF and NHA officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Neighborhood House Association’s Head Start Costs and Internal Controls (A-09-11-01015)           8
     APPENDIX B: FEDERAL REQUIREMENTS FOR HEAD START GRANTEES

CRIMINAL RECORD CHECKS

According to section 648A (g) of the Head Start Act, P.L. No. 110-134 (42 U.S.C. § 9843a(g)),
before a Head Start agency employs an individual, the agency must obtain a State, tribal, or
Federal criminal record check covering all jurisdictions where the grantee provides Head Start
services to children; a State, tribal, or Federal criminal record check as required by law of the
jurisdiction where the grantee provides Head Start services; or a criminal record check as
otherwise required by Federal law. Prior to the effective date of the enactment of the statutory
requirement (December 12, 2007), regulations at 45 CFR § 1301.31(b)(1)(iii) required grantee
and delegate agencies to conduct a State or national criminal record check, as required by State
law or administrative requirement, before an employee was hired.

ACF’s Program Instruction ACF-PI-HS-08-02, issued April 14, 2008 (now superseded), stated:

        Every Head Start program is required to assure background checks have been
        conducted on all Head Start employees. If there are any employees for whom
        background checks have not been conducted, they must be done immediately.
        Any Head Start grantee found not to have conducted background checks for all of
        its permanent Head Start employees will be designated a deficient grantee.

Federal regulations (45 CFR § 1301.31(b)(2)) state that grantee and delegate agencies must
require that all current and prospective employees sign a declaration before employment that lists
(1) all pending and prior criminal arrests and charges related to child sexual abuse and their
disposition; (2) convictions related to other forms of child abuse and neglect; and (3) all
convictions of violent felonies.

NOTICES OF FEDERAL INTEREST

Federal regulations (45 CFR § 1309.21(a)) state that the Federal Government has an interest in
all real property and equipment acquired or upon which major renovations have been undertaken
with grant funds for use as a Head Start facility. Regulations (45 CFR § 74.37) also state that
grant recipients must record liens or other appropriate notices of record to indicate that real
property has been acquired or constructed or, where applicable, improved with Federal funds,
and that use and disposition conditions apply to the property.

Federal regulations (45 CFR § 1309.3) state that “acquire” means to purchase or construct in
whole or in part with Head Start grant funds through payments made in satisfaction of a
mortgage agreement (both principal and interest), as a downpayment, and for professional fees,
closing costs, and any other costs associated with the purchase or construction of the property
that are usual and customary for the locality.

Federal regulations (45 CFR § 1309.21(d)(2)) state that the grantee must record the notice in the
appropriate official records for the jurisdiction where a facility is or will be located immediately
upon purchasing a facility or land on which a facility is to be constructed; receiving permission



Neighborhood House Association’s Head Start Costs and Internal Controls (A-09-11-01015)                9
to use funds to continue purchase of a facility; or commencing major renovation of a facility or
construction of a facility. 7

Federal regulations (45 CFR § 1309.21(d)(3)) state that the notice for property sited on land not
owned by the grantee must include the following information: (1) the date of the award of grant
funds for the acquisition or major renovation of the property to be used as a Head Start facility
and the address and legal description of the property to be acquired or renovated; (2) that the
grant incorporated conditions that included restrictions on the use of the property and provide for
a Federal interest in the property; (3) that the property may not be used for any purpose
inconsistent with that authorized by the Head Start Act and applicable regulations; (4) that the
property may not be mortgaged or used as collateral, sold, or otherwise transferred to another
party, without the written permission of the responsible HHS official; (5) that these grant
conditions and requirements cannot be altered or nullified through a transfer of ownership; and
(6) the name (including signature) and title of the person who completed the notice for the
grantee agency and the date of the notice.

Federal regulations (45 CFR § 1309.31(b)) state that modular units purchased with grant funds
and that are not permanently affixed to land or that are affixed to land not owned by the grantee
must have posted in a conspicuous place the following notice:

           On (date), the Department of Health and Human Services (DHHS) awarded (grant
           number) to (Name of grantee). The grant provided Federal funds for conduct of a
           Head Start program, including purchase of this modular unit. The grant
           incorporated conditions which included restrictions on the use and disposition of
           this property, and provided for a continuing Federal interest in the property.
           Specifically, the property may not be used for any purpose other than the purpose
           for which the facility was funded, without the express written approval of the
           responsible DHHS official, or sold or transferred to another party without the
           written permission of the responsible DHHS official. These conditions are in
           accordance with the statutory provisions set forth in 42 U.S.C. 9839; the
           regulatory provisions set forth in 45 CFR part 1309, 45 CFR part 74 and 45 CFR
           part 92; and Administration for Children and Families’ grants policy.

AUDITS OF SUBRECIPIENTS

Federal regulations (45 CFR § 1301.12(a)) state that an audit of the Head Start program covering
the prior budget period of each Head Start agency and its delegate agencies, if any, must be made
by an independent auditor to determine (1) whether the agency’s financial statements are
accurate; (2) whether the agency is complying with the terms and conditions of the grant; and
(3) whether appropriate financial and administrative procedures and controls have been installed
and are operating effectively. Head Start agencies must either include delegate agency audits as
part of their own audits or provide for separate independent audits of their delegate agencies.

Federal regulations (45 CFR § 74.51(a)) state that grant recipients are responsible for managing
and monitoring each project, program, subaward, function, or activity supported by the award.
7
    Except as required under § 1309.31 for certain modular units.


Neighborhood House Association’s Head Start Costs and Internal Controls (A-09-11-01015)            10
    APPENDIX C: COSTS CLAIMED AND RESULTS OF AUDIT FOR THE PERIOD
                   JULY 1, 2009, THROUGH JUNE 30, 2010




           Cost Category                Claimed          Allowable        Unallowable        Not Reviewed

     Personnel                        $15,109,622       $15,109,622                    $0                   $0


     Fringe Benefits                     5,102,816                   0                  0          5,102,816


     Travel                                  64,717                  0                  0              64,717

     Supplies 8                          1,243,997         1,243,997                    0                    0


     Contractual                       39,700,533                    0                  0        39,700,533


     Facilities/Construction               163,249           163,249                    0                    0


     Other 9                             4,404,839         4,404,839                    0                    0


     Indirect Costs                      5,841,237         5,841,237                    0                    0


        Total                         $71,631,010 $26,762,944                          $0       $44,868,066




8
 The Supplies cost category included certain equipment expenditures (costs totaling less than $5,000) that had been
expensed during the award period.
9
  The Other cost category included expenditures related to buildings, including rent, repairs and maintenance, and
depreciation and interest expense. Other expenditures included utilities, food subsidy, and insurance. Additionally,
there were expenditures for certain equipment (costs totaling more than $5,000) that had been expensed during the
award period.


Neighborhood House Association’s Head Start Costs and Internal Controls (A-09-11-01015)                           11
         APPENDIX D: NEIGHBORHOOD HOUSE ASSOCIATION COMMENTS 





           Chairperson                                                                                                           Pres ident and CEO
           G il Johnson                                                                                                        Rudolph A . Johnson, Ill




           November 9, 2012



           Ms. Lori Ahlsprand
           Regional Inspector General
           Office of Audit Services
           90 Seventh Street
           Suite 3-650
           San Francisco, CA 94103

           RE: Report Number A-09-11-01015

           Dear Ms. Ahlsprand :

           Enclosed please find the Neighborhood House Association comments on the U.S.
           Department of Health and Human Services Office of Inspector General (OIG) Draft Report
           Number A-09-11-01 015. We appreciate the opportunity to respond to the draft report.

           Respectfully,



           Gil Johnson, Board Chair
           Neighborhood House Association

           Enclosure

           GJ/mk




                  5660 COPLEY DRIVE, SAN DIEGO, CALIFORNIA 92111 TELEPHONE: 858 .715.2642 FACSIMILE: 858 .715.2670 info@neighborhoodhouse.org
                                                                 www.neighborhoodhouse.org




Neighborhood House Association 's Head Start Costs and Internal Controls (A-09-11 - 01 01 5)                                                              12
                   Neighborhood House Association Written Comments Regarding Draft Report 

                                                           Number A-09011-01015 

                                                                      Entitled
                   "Neighborhood House Association Claimed Allowable Head Start Costs but Did Not Maintain
                         Adequate Internal Controls Related to Personnel, Facilities and Subcontracts"

             NHA does agree with your finding t hat for the period of review (July 1, 2009 through June 30, 2010), of
             the $26,762,944 of costs reviewed, " t he entire amount was allowable in accordance w ith the terms of
             the award and applicable Federal requiremen ts." This amount is well over 35% of t he total Head Start
             funds awarded to NHA during th is review pe riod. NHA also concurs with your find ing that "NHA
                 maintained adequate internal controls related to procurement to administer fede rally f unded projects."

             For t he three (3) remaining findings and th ree (3) draft recommendations our additional comments are
             provided below.

             Criminal Record Checks and Crimi nal History St at eme nt s Did Not Comply with Federal Requirements

             NHA Response: The Neighborhood House Association operated under the reasonable interpretat ion
             that Section 648A (g)(3) of the Head Start Act requiring a " Federal, State or tribal criminal record check
             covering all jurisdictions where the grantee provides Head Start services to children", properly deferred
             to State law to determine what constitutes compliance with the criminal record check requireme nt
             when operating a State licensed child care facility. NHA only provides Head Start services in California .

             The California Department of Social Services, Community Care Licensing Division (" CCL") is the State
             agency that has been delegated responsibility fo r enforcement of the regulations governing the licensing
             and operation of child day ca re centers. All individuals employed in a licensed child day care center are
             required to undergo a crimi nal record check1 .

             It has been NHA's practice to comply with CCL procedures which require Form LIC 508 be obtained from
             all persons prior to being associated with a licensed child day care facilitl. Prior t o working at a NHA
             l icensed child day care faci lity, all personnel (both admi nistrative and direct care providers) m ust also
             receive criminal record chec k clearance. For person's assigned to a licensed child day care faci lity, NHA
             uses a live Scan fingerprint to conduct a check for any arrests, convictions, or pending charges, related
             to child sexual abuse and their dispositions; convictions related to other forms of child abuse and
             neglect; and all convictions of violent felonies.

             Child day care services are not provided at the Copley Administrative Headquarters; therefore,
             employees assigned to that location were not req uired to undergo a criminal records check clearance.
             CCL has not cited any Copley Administrative employee with violation of the criminal record check
             clearance requirements, or for failure to complete Form LIC 508.

             1
              California HeaJth and Safety Code Section 1596.8897. 

             2
              In order to be licensed, work at, or be present at, a licensed facility, the law requires that you complete a crinrinaJ 

             background check. (Health and Safety Code sections 1522, 1568.09, 1569.17 and 1596.871) 





            - - - - - - - - - - - - -- - - Page 1




Neighborhood House Association's Head Start Costs cmd Internal Controls ~-09-11-0 1015)                                                   13
              NHA has implemented the following new protocols:

                  1. 	 Revised Written Policies and Procedures. NHA revised HR Admin Policy #102 - Criminal
                       Background Check Policy and Procedures, to now require that ill! employees (direct, indirect,
                       center-based, admin office based) and certain volunteers must undergo a criminal record check
                       prior to beginning employment.

                  2. 	 Revised Emolovment Aoo lication. In January 2012, NHA revised its Application for Employment
                       to require disclosure of any arrests or convictions related to child sexual abuse and other forms
                       of child abuse and neglect.

                  3. 	 Revised Annual Conflict of Interest Questionnaire. Beginning in fiscal year 2011-2012, NHA
                       Senior Staff and othe r designated staff are required to provide annual update and disclosure of
                       any debarment, pending investigat ions and civil/criminal convictions.

                 4. 	 Completed Criminal Record Check. All current employees have received a criminal record check
                      clearance.

             Notices for property for which the Federal government has an interest were not recorded or
             i mproperly recorded.

             NHA Response: NHA agrees that we did not know a notice was required for one of our facilities. Once it
             had been determined this was required NHA filed a Notice of Federal Interest (NOFI}, in August, 2012,
             on the one facility referenced. The additional properties and facilities requiring these Notices received
             grant awards between Fiscal Years 1993-1994 and Fiscal Years 2001- 2002. In 2010, ACF notified NHA
             of the requirement to record Notices of Federal Interest. NHA put procedures in place and began to
             work closely with the regional office to meet the requirement of recording the required notices of
             federal interest. Between March, 2010 and July, 2011 NHA submitted the 18 NOFis to the ACF Regional
             Office. NHA was never notified or given any indication the 18 NOFI's submitted were defective. NHA is
             working with the ACF Regional Office to revise, perfect, record, resubmit the NOFis and repost them in
             the facilities as required .

             Written policies and procedures for recording notices of federal interest regarding the use or transfer of
             Head Start facilities or property funded under the applicable requirements of 45 CFR 1309.21 (d)(3) and
             45 CFR 1309.31 (b) are currently being finalized .

             Su b Reci p ient Did Not Provide Audit Report to Neighborhood house Association

             NHA Response: Per NHA's contractual obligations with the sub recipient, on January 12, 2011, the
             monitoring unit requested the financial audit from the sub recipient, three months prior to the audit
             submission deadline. The sub recipient responded in writing by saying they will have the audit soon.
             When the nine month deadline arrived on March 31, 2011, payment was withheld to the sub recipient
             until further fiscal review, stating that an audit is required per the sub recipient contractual obligations
             with NHA.




            --------------------------------- Page2




Neighborhood House Association's Head Start Costs cmd Internal Controls ~-09-11-0 1015)                                     14
              A letter dated April 29, 2011 was sent to the sub recipient stating the required financial obligations
              Subsequently, On May 9, 2011 a meeting was held with the sub recipient to again to discuss and review
              the regulations, policies and requirements that relate to Federal funds. As a result, a letter dated May
              13, 2011 was issued to the sub recipient stating that NHA would not renew their contract that would
              expire on June 30, 2011.

              NHA monitoring of the sub recipient resulted in the nonrenewal of the contract. NHA is amend ing all sub
              recipient contracts with language to suspend payments to the sub recipient when the audit is not
              received in a timely fashion as required by OMB A-133 or nine months after the end of the agency's
              fiscal year.

              In lieu of the audit and in order to secure the Federal funds, NHA did review over 75% of the sub
             recipient's total disbursements as to allowability and allocability.




            --------------------------------- Page3




Neighborhood House Association's Head Start Costs cmd Internal Controls ~-09-11-0 1015)                                  15
                      APPENDIX E: OFFICE OF HEAD START COMMENTS 





                           DEPARTMENT OF H EALTH & HUMAN SERVI CES                       CHI'lii'REN &< FAMIllES
                                                                                             Region IX
                           Refer to: 09C H70 15                                              90 7th Street, Suite 9-100
                                                                                             San Francisco, CA 94103


              DATE: 	        January II , 20 13

             TO : 	          Lori A. Ahlstrand
                             Regional Inspector Gene ra l for A udit Services

              FRO M : 	      Jan Len /Jan Len!
                             Regional Program Manager, Region IX




             SUBJECT: Neighborh ood House Assoc iation Claimed Allowable Head Start Costs but Did Not
             Maintain Adequate Interna l Controls Re lated to Personne l, Facilities, and Subcontracts (A-09­
             11 -0 I 0 15)

             We have ca refull y reviewed and agree with the fi ndings provided by the Office oflnspecto r
             General's repo rt on Neighborhood House Association 's (N HA) c la imed Head Start costs and
             intern a l contro ls re lated to pe rsonn el, proc urement, facilities, and s ubcontracts to adm inister
             federall y funded proj ects. We have reviewed N HA's response to the report as part of append ix D
             and we w ill work with NH A provid ing Training and Technical Assistance (TIT A) to ensure their
             corrective action p lan is imple mented time ly. We thank you fo r completing th is review on NHA.




             cc:

             A nn Li nehan, De puty Di rector, O ffi ce of Head Start
             Martin Tom, G rants Management O fficer, Region IX, Office of G rants Man agement
             Yolanda Wise, Head Start Program Specialist, Office ofHead Start




Neighborhood House Association 's Head Start Costs and Internal Controls (A -09-11- 0101 5)                               16
